No. 19-351
In the

Supreme Court of the United States
__________________

FEDERAL REPUBLIC OF GERMANY, ET AL.,
Petitioners,
v.
ALAN PHILIPP, ET AL.,
__________________

Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

__________________

BRIEF OF THE NATIONAL JEWISH COMMISSION
ON LAW AND PUBLIC AFFAIRS (“COLPA”) AND
SEVEN NATIONAL ORTHODOX JEWISH
ORGANIZATIONS AMICI CURIAE IN SUPPORT OF
RESPONDENTS

__________________

Of Counsel
DENNIS RAPPS
NATIONAL JEWISH COMMISSION
ON LAW AND PUBLIC AFFAIRS
450 Seventh Avenue
44th Floor
New York, NY 10123
(646) 598-7316
drapps@dennisrappslaw.com

NATHAN LEWIN
Counsel of Record
ALYZA D. LEWIN
LEWIN & LEWIN, LLP
888 17th Street NW
4th Floor
Washington, DC 20006
(202) 828-1000
nat@lewinlewin.com

Attorneys for Amici Curiae
October 19, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 4
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

GERMANY’S COERCED PURCHASE WAS
NOT A “DOMESTIC TAKING” BECAUSE
THE SELLERS DID NOT, AT THE TIME
OF THE PURCHASE, HAVE THE SAME
RIGHTS TO REDRESS UNDER GERMAN
LAW AS ALL OTHER GERMAN
NATIONALS . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II.

THE PLAINTIFF-RESPONDENTS DID
NOT “FORFEIT” THE CLAIM THAT THE
OWNERS OF THE WELFENSCHATZ
WERE NO LONGER GERMAN CITIZENS
WHEN THEIR PROPERTY WAS TAKEN . . 8

III.

THIS COURT SHOULD TAKE JUDICIAL
NOTICE OF UNDISPUTED HISTORICAL
FACTS AND AFFIRM THE JUDGMENT
OF THE DISTRICT COURT WITHOUT
DECIDING THE QUESTION PRESENTED
IN GERMANY’S PETITION FOR
CERTIORARI . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
Cases
Board of Education v. Allen,
392 U.S. 236 (1968). . . . . . . . . . . . . . . . . . . . . . . . 1
Brown v. Piper,
91 U.S. 37 (1875). . . . . . . . . . . . . . . . . . . . . . . . . 12
Fedorenko v. United States,
449 U.S. 490 (1981). . . . . . . . . . . . . . . . . . . . . . . 12
Intel Corp. Inv. Policy Committee v. Sulyma,
140 S. Ct. 768 (2020). . . . . . . . . . . . . . . . . . . . . . . 8
Muller v. Oregon,
208 U.S. 412 (1908). . . . . . . . . . . . . . . . . . . . . . . 11
New York Indians v. United States,
170 U.S. 1 (1898). . . . . . . . . . . . . . . . . . . . . . . . . 11
OBB Personenverkehr AG v. Sachs,
136 S. Ct. 390 (2015). . . . . . . . . . . . . . . . . . . . . . 10
Taylor v. Freeland & Kronz,
503 U.S. 638 (1992). . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Reimer,
356 F.3d 456 (2d Cir. 2004) . . . . . . . . . . . . . . . . 12
United States v. Belmont,
301 U.S. 324 (1937). . . . . . . . . . . . . . . . . . . . . . 3, 7
Rule
Fed. R. Evid. 201(b) . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
Other Authorities
Black’s Law Dictionary . . . . . . . . . . . . . . . . . . . . . . . 7
Shapiro, Geller, Bishop, Hartnett & Himmelfarb,
Supreme Court Practice (10th ed. 2013). . . . . . . . 11
TheLaw.com Law Dictionary . . . . . . . . . . . . . . . . . . . 7

1
INTEREST OF THE AMICI1
The National Jewish Commission on Law and
Public Affairs (“COLPA”) has spoken on behalf of
America’s Orthodox Jewish community for more than
half a century. COLPA’s first amicus brief in this Court
was filed in 1967 in Board of Education v. Allen, 392
U.S. 236 (1968). Since that time, COLPA has filed more
than 40 amicus briefs to convey to this Court the
position of leading organizations representing Orthodox
Jews in the United States. The following national
Orthodox Jewish organizations join this amicus brief:
PAgudas Harabbonim of the United States and Canada
is the oldest Jewish Orthodox rabbinical organization
in the United States. Its membership includes leading
scholars and sages, and it is involved with educational,
social and legal issues significant to the Jewish
community.
PCoalition for Jewish Values (“CJV”) is a national
rabbinic public policy organization that represents
more than 1,500 traditional Orthodox rabbis and
advocates for classical Jewish ideas and standards in
matters of American public policy.
PNational Council of Young Israel is a coordinating
body for more than 300 Orthodox synagogue branches
in the United States and Israel that is involved in
1

Pursuant to Supreme Court Rule 37.6, amici certify that no
counsel for a party authored this brief in whole or in part. No
person or party other than the amici has made a monetary
contribution to this brief’s preparation or submission. The parties
have filed blanket consents.

2
matters of social and legal significance to the Orthodox
Jewish community.
POrthodox Jewish Chamber of Commerce is a global
umbrella of businesses of all sizes, bridging the highest
echelons of the business and governmental worlds
together stimulating economic opportunity and
positively affecting public policy of governments around
the world.
PRabbinical Alliance of America is an Orthodox Jewish
rabbinical organization with more than 950 members
that has, for many years, been involved in a variety of
religious, social and educational causes affecting
Orthodox Jews.
PRabbinical Council of America (“RCA”) is the largest
Orthodox Jewish rabbinic membership organization in
the United States comprised of nearly one thousand
rabbis throughout the United States and other
countries. The RCA supports the work of its member
rabbis and serves as a voice for rabbinic and Jewish
interests in the larger community.
PTorah Umesorah (National Society for Hebrew Day
Schools) serves as the preeminent support system for
Jewish Day Schools and yeshivas in the United States
providing a broad range of services. Its membership
consists of over 675 day schools and yeshivas with a
total student enrollment of over 190,000.

3
INTRODUCTION
Germany proudly exhibits a collection of medieval
ecclesiastical art called the Welfenschatz as a “national
cultural treasure” in the Bode Museum in Berlin. In
describing its exhibit the German government fails to
disclose how Germany came to own this priceless
collection. It does not even hint that its 1935 purchase
from Jewish owners residing in Frankfurt was
managed by Herman Goering, Nazi Germany’s second
most powerful government official, so that the treasure
could be given as a surprise gift to Adolf Hitler.
Supported surprisingly by our own State and
Justice Departments, Germany has brought this case
to this Court to have the Supreme Court of the United
States confirm that Germany did not violate the law of
nations when it coerced Jews (three of whom would
soon flee from Germany) to surrender ownership of the
Welfenschatz for a purchase price that was less than
one-third its true value. In an astounding
demonstration of gross insensitivity and arrogance,
Germany claims that the 1935 purchase was a
“domestic taking” by Germany of its “own national’s
property within its own borders.” Brief for Petitioners
9.
Page 18 of Germany’s brief cites this Court’s
explanation of why “domestic takings” are, in ordinary
circumstances, not deemed to be violations of
international law. This Court said in United States v.
Belmont, 301 U.S. 324, 332 (1937), that if citizens’
property is expropriated by their government, “[s]uch
nationals must look to their own government for any
redress to which they may be entitled.” Germany never

4
suggests how Jewish residents of Frankfurt whose
valuable property was extorted from them in June 1935
via a devious scheme orchestrated by Goering could
have obtained “redress to which they [were] . . .
entitled” from Hitler’s Nazi government.
We need not describe in detail for this Court how
Jews were treated by German law in 1935. That task
has been performed admirably in the Brief of Amici
Curiae Holocaust and Nuremberg Historians filed in
this case on September 10, 2020.
Germany’s conduct in retaining ownership of the
Welfenschatz and in defending its Nazi expropriation as
valid under the law of nations brings to mind the
biblical condemnation uttered by Elijah the Prophet to
King Ahab after Queen Jezebel had Naboth executed so
that Ahab could take possession of Naboth’s treasured
vineyard. (Kings I, 21:19). The tone and cadence of
Elijah’s denunciation in Hebrew cannot be conveyed in
translation so we quote it in its original and in English:

“Have you murdered and also inherited?”
Elijah’s remonstrance applies, we submit, to
Germany.
SUMMARY OF ARGUMENT
This amicus brief focuses on three points:
First, the Court should not now address (1) the
contention of Germany and the Solicitor General that
the law of nations is not violated if “a sovereign has

5
expropriated the property of its own nationals” and
(2) whether the taking was tantamount to an act of
genocide. Nor need it now address the availability of
the doctrine of international comity – the second of
Germany’s Questions Presented.
We urge the Court to consider an alternate ground
to reject Germany’s “domestic takings” defense that
was not argued below. We submit that the “domestic
takings” proposition applies only if those whose
property has been expropriated are truly nationals or
citizens of the expropriating sovereign. If the sovereign
does not grant individuals whose property has been
taken the same right under law as other citizens to
obtain “redress to which they may be entitled,” such
individuals are not “nationals” within the ambit of the
“domestic takings” principle of international law.
Indisputable historical facts are set forth in the
amicus brief of the Holocaust and Nuremberg
Historians. That history proves that Jews were no
longer truly “nationals” of Germany as early as 1933,
and surely not by June 1935. The September 1935
Nuremberg Laws merely codified the existing situation
in Nazi Germany.
Second, we challenge the assertion made at page 19
and footnote 7 of Germany’s brief that the plaintiffs in
the district court “forfeited” any argument that the
owners of the Welfenschatz were no longer German
nationals by June 1935.
Third, in light of undisputed historical evidence of
the status of Jewish residents of Germany in 1935, this
Court should take judicial notice that the owners of the

6
Welfenschatz were, because of their Jewish identity, no
longer “nationals” or “citizens” of Germany within the
meaning of the “domestic takings” principle of
international law. Such finding by this Court would
result in denial of Germany’s motion to dismiss without
resolving the legal issue that Germany and the
Solicitor General have laboriously argued.
ARGUMENT
I.
GERMANY’S COERCED PURCHASE WAS NOT
A “DOMESTIC TAKING” BECAUSE THE
SELLERS DID NOT, AT THE TIME OF THE
PURCHASE, HAVE THE SAME RIGHTS TO
REDRESS UNDER GERMAN LAW AS ALL
OTHER GERMAN NATIONALS
Germany claims that the Jews who sold the
Welfenschatz in June 1935 were, at that time, German
“nationals” or “citizens.” To be sure, Germany did not
formally strip its Jews of their German citizenship
until September – three months after the treasure’s
owners acceded to the terms of the “sale.” The First
Ordinance to the “Reich Citizenship Law” was issued
on November 14, 1935, and it declared in Article 4(1)
that “A Jew cannot be a Reich citizen.”
Does it follow that until Germany made a formal
declaration cancelling the German nationality of all its
Jews, they were, for international-law purposes,
“nationals” of the German Reich? That conclusion
contradicts the accepted definition of nationality and
citizenship, as well as undisputed and indisputable
history.

7
Black’s Law Dictionary and TheLaw.com Law
Dictionary define “citizen” as follows: “A member of a
free city or rural society possessing all the rights
and privileges which can be enjoyed by any person
under its constitution and government, and subject
to the corresponding duties.” (Emphasis added.) A
person who does not have “all” rights and privileges of
citizenship is not, by definition, a “citizen.”
The amicus brief filed by the Holocaust and
Nuremberg Historians amply establishes that long
before June 1935 Germany’s Jews were deprived of
rights enjoyed by other German citizens. From the time
of Hitler’s appointment as Chancellor on January 30,
1933, German Jews “were viewed and treated
increasingly as aliens and strangers in their own land.”
Amicus Brief 4. They were “systematically stripped of
legal and economic rights normally associated with
citizenship” and subjected to “a creeping curtailment of
legal and property rights.” Ibid. Pages 10-25 of the
amicus brief detail the indisputable historical facts
supporting these conclusions.
Jews did not, in June 1935, have the right or ability
that non-Jewish Germans had at that time to obtain
from the government of the Third Reich “redress to
which they may be entitled.” Consequently, the
justification articulated in United States v. Belmont,
301 U.S. 324, 332 (1937), for denying international-law
liability for “domestic takings” does not apply to the
Nazi government’s taking in June 1935 of Jewishowned property such as the Welfenschatz.
The dictionary definition of “citizen” controls this
case, just as dictionary definitions of statutory

8
language led this Court to its recent unanimous
decision in Intel Corp. Inv. Policy Committee v. Sulyma,
140 S. Ct. 768, 776 (2020). When Goering arranged to
“purchase” the Welfenschatz in June 1935 he was not
doing business with German “nationals” who could, if
justified, seek “redress” from their own government.
II.
THE PLAINTIFF-RESPONDENTS DID NOT
“FORFEIT” THE CLAIM THAT THE OWNERS
OF THE WELFENSCHATZ WERE NO LONGER
GERMAN CITIZENS WHEN THEIR PROPERTY
WAS TAKEN
Germany asserts at page 19 of its brief that the
issue it has brought to this Court – whether property
Germany took “from its own national” is a violation of
international law – is dispositive of this case because,
it says, the “individuals who owned these art
dealerships were German nationals.” In footnote 7 the
brief claims that the plaintiff-respondents have
“forfeited” the “novel argument” that the owners of the
Welfenschatz in June 1935 were no longer “German
nationals.”
None of the record citations specified in Germany’s
brief supports the brief’s assertion that this legal
argument – which we make in our amicus brief
regardless of the legal contentions made by the
plaintiff-respondents – has been “forfeited” by the
plaintiffs or waived in any way.
(1) Joint App. 43 (Complaint ¶1) describes the
owners of the Welfenschatz as “three art dealer

9
firms in Frankfurt.” It does not acknowledge or
imply that the firms were German nationals.
(2) Joint App. 48 (Complaint ¶¶17, 18, 19)
describes the individual plaintiffs (two of whom
are United States citizens) as the sole legal
successors to the individuals who owned the
dealer firms – Zacharias Max Hackenbroch,
Isaak Rosenbaum, and Saemy Rosenberg. There
is no acknowledgement or implication that these
owners were German nationals.
(3) Joint App. 63 (Complaint ¶34) describes the
Consortium that owned the Welfenschatz. It
contains no acknowledgement or implication
that the Consortium or its constituent members
were German nationals.
(4) Joint App. 89-90 (Complaint ¶¶128-130)
describe the flight from Germany of the
Welfenschatz’s owners. There is no
acknowledgement or implication that they were,
at the time of the transaction, German
nationals.
(5) Joint App. 99-101 (Complaint ¶¶163-176)
describe the reportedly violent death of
Hackenbroch and the flight and emigration of
Goldschmidt, Rosenberg, and Rosenbaum. No
allegation acknowledges or implies that any of
them was a German national in June 1935.
(6) Joint App. 216-217 (Expert Opinion of Dr.
Christian Armbruster ¶¶14-17) says that it
“seems correct to assume that all the three firms
were German entities.” This is not an

10
acknowledgement or implication by the
plaintiffs that the firms were, as of June 1935,
German nationals. It is the opinion of Germany’s
retained expert.
Whether the owners of the Welfenschatz were or
were not German nationals in June 1935 when the
Nazi government took their property was not resolved
by the initial pleadings. At that juncture, Germany
took an interlocutory appeal from a decision in the
district court that accepted arguendo Germany’s
assertion that the owners had citizenship status when
their property was taken. Germany argued that it was
immune as a matter of law because it obtained
ownership by a “domestic taking.” The plaintiffs
properly defended the district court’s legal conclusion
and had no duty, at this early stage of the litigation, to
respond with a factual defense that was an alternative
ground on which they could prevail – i.e., that the
owners had effectively been deprived of German
nationality before June 1935.
This case is, therefore, not controlled by OBB
Personenverkehr AG v. Sachs, 136 S. Ct. 390, 397-398
(2015), on which Germany relies. In the OBB case a
district court ruled in the defendant’s favor and
dismissed the complaint. A panel of the court of
appeals affirmed the dismissal. The case was then
argued a third time before the en banc Ninth Circuit,
which vacated the dismissal. This Court rejected the
Ninth Circuit’s holding, and the plaintiff, in addition to
defending the decision of the district court and the
panel of the court of appeals, asserted a legal theory
that she raised for the first time in this Court. Under
these circumstances, this Court ruled that an

11
“argument [that] was never presented to any lower
court” was “forfeited.”
In Taylor v. Freeland & Kronz, 503 U.S. 638 (1992),
on which the OBB decision relied, the history of the
litigation was even more compelling. A trustee in
bankruptcy prevailed in bankruptcy court and in the
district court, but lost in the court of appeals. His
petition for certiorari failed to raise a legal contention
based on a statutory provision on which he had not
relied in any lower court. This Court ruled that “the
integrity of the process of certiorari” foreclosed
consideration of his new claim. 503 U.S. at 646.
III.
THIS COURT SHOULD TAKE JUDICIAL
NOTICE OF UNDISPUTED HISTORICAL
FACTS AND AFFIRM THE JUDGMENT OF
THE DISTRICT COURT WITHOUT DECIDING
THE QUESTION PRESENTED IN GERMANY’S
PETITION FOR CERTIORARI
This Court takes judicial notice of facts that are
“generally known” and can be “accurately and readily
determined from sources whose accuracy cannot
reasonably be questioned.” Rule 201(b) of the Federal
Rules of Evidence; see Shapiro, Geller, Bishop,
Hartnett & Himmelfarb, Supreme Court Practice 743745 (10th ed. 2013).
In accepting the “Brandeis Brief” in Muller v.
Oregon, 208 U.S. 412, 421 (1908), this Court said, “We
take judicial cognizance of all matters of general
knowledge.” In New York Indians v. United States, 170
U.S. 1, 32 (1898), this Court articulated the following

12
principle regarding judicial notice: “While it is
ordinarily true that this court takes notice of only such
facts as are found by the court below, it may take
notice of matters of common observation, of statutes,
records, or public documents which were not called to
its attention, or other similar matters of judicial
cognizance.” And in Brown v. Piper, 91 U.S. 37, 42
(1875), the Court observed, “Facts of universal
notoriety need not be proved.”
Applying this principle, this Court can and should
take judicial notice of the indisputable historical fact
that by the beginning of 1935 Jewish nationals residing
in Germany no longer had the rights of non-Jewish
German citizens. This Court’s decision in Fedorenko v.
United States, 449 U.S. 490 (1981), and the opinion
written by then-Circuit Judge Sotomayor in United
States v. Reimer, 356 F.3d 456 (2d Cir. 2004), illustrate
judicial cognizance of the historically unique
persecution of Jews by the Nazis.
This indisputable fact resolves this Court’s
disposition of this case. Once one acknowledges that
Jews residing in Frankfurt in June 1935 were not
citizens of Germany because, unlike non-Jewish
citizens, Jews were legally unable to obtain “redress”
for governmental takings of their property, the decision
of the district court, affirmed by the court of appeals,
should be affirmed regardless of the resolution of the
legal issue presented by the petition for certiorari and
argued in the briefs of Germany and the Solicitor
General. The case can then be remanded for discovery
and further proceedings.

13
CONCLUSION
For the reasons in this amicus brief, corroborated by
the amicus brief of the Holocaust and Nuremberg
Historians, the judgment of the district court should be
affirmed and the case remanded for further
proceedings without resolution of the first issue
presented in the petition for a writ of certiorari.
Respectfully submitted,
Of Counsel
DENNIS RAPPS
NATIONAL JEWISH COMMISSION
ON LAW AND PUBLIC AFFAIRS
450 Seventh Avenue
44th Floor
New York, NY 10123
(646) 598-7316
drapps@dennisrappslaw.com

NATHAN LEWIN
Counsel of Record
ALYZA D. LEWIN
LEWIN & LEWIN, LLP
888 17th Street NW
4th Floor
Washington, DC 20006
(202) 828-1000
nat@lewinlewin.com

Attorneys for Amici Curiae

